<html>
<title> - AFTER SAN BERNARDINO: THE FUTURE OF ISIS-INSPIRED ATTACKS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]









                  AFTER SAN BERNARDINO: THE FUTURE OF 
                         ISIS	INSPIRED ATTACKS

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 10, 2016

                               __________

                           Serial No. 114-137

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-601 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM KEATING, Massachusetts
DARRELL E. ISSA, California          BRAD SHERMAN, California
PAUL COOK, California                BRIAN HIGGINS, New York
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
REID J. RIBBLE, Wisconsin            ROBIN L. KELLY, Illinois
LEE M. ZELDIN, New York





















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

General Jack Keane, USA, Retired, chairman of the board, 
  Institute for the Study of War.................................     5
The Honorable Alberto M. Fernandez, vice president, Middle East 
  Media Research Institute.......................................    16
Christopher Swift, Ph.D., adjunct professor, Edmund A. Walsh 
  School of Foreign Service, Georgetown University...............    30

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

General Jack Keane, USA, Retired: Prepared statement.............     8
The Honorable Alberto M. Fernandez: Prepared statement...........    18
Christopher Swift, Ph.D.: Prepared statement.....................    33

                                APPENDIX

Hearing notice...................................................    50
Hearing minutes..................................................    57

 
       AFTER SAN BERNARDINO: THE FUTURE OF ISIS-INSPIRED ATTACKS

                              ----------                              


                      WEDNESDAY, FEBRUARY 10, 2016

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2200 Rayburn House Office Building, Hon. Ted Poe 
(chairman of the subcommittee) presiding.
    Mr. Poe. Without objection, all members may have 5 days to 
submit statements, questions, extraneous materials for the 
record, subject to the length limitation in the rules.
    On December 3, 2015, husband and wife, Syed Farook, 28, and 
Tashfeen Malik, 29, carried out the worst terror attack in the 
United States since 9/11. They killed 14 people, seriously 
injured at least 22 others in San Bernardino, California. This 
was not the first ISIS inspired attack in the United States, 
nor would it be the last.
    On October 23, 2014, a man believed to be self-radicalized 
attacked four police officers in New York City with a hatchet. 
On May 3, 2015, two men opened fire outside of a Prophet 
Muhammad cartoon contest in a Dallas suburb, at least one of 
the gunmen appeared to have contact with ISIS operative via 
social media. Last month, a man was arrested in Philadelphia 
after shooting and wounding a police officer. The attacker 
claimed to have committed the attack on behalf of ISIS.
    In all, ISIS has conducted over 60 attacks in 20 countries. 
The map that is to the General's right, and I think all of you 
have a copy of that map--I don't know if you can see this or 
not. The map shows where these attacks have taken place, and 
they stretch from California to Australia and many places in 
between. The fact is the death toll from terrorism is on the 
rise. The chart shows global deaths from terrorism since 2001. 
Global deaths from terrorism are three times higher than when 
the President took office, and it is hard to say that the world 
is a safer place because it is not.
    One of the main questions of this hearing is can these 
kinds of ISIS inspired attacks be stopped? If they can't be 
eliminated entirely, is there more that we can be doing to make 
sure that there are less of these ISIS attacks? ISIS feeds on a 
narrative of strength. If we can puncture the narrative and 
show that ISIS is on the run and collapsing, that could 
significantly impact ISIS' ability to inspire attacks in the 
United States and the world.
    Our current strategy is not doing that, in my opinion. In a 
national televised address in September of '14, the President 
stated that the United States would degrade and ultimately 
destroy ISIS. Today, 17 months later, we have not accomplished 
that goal. It took a year from the President's speech before he 
finally allowed air strikes to target the oil infrastructure 
that ISIS is using to rake in millions of dollars a day.
    The number of strike sorties flown per day against ISIS are 
a quarter of what we flew in Libya in 2011, and only 2 percent 
of what we flew in Iraq in 2003. Of the sorties that did fly 
out, 76 percent returned to base without dropping any 
munitions. While we all know air strikes alone can't defeat 
ISIS, we have yet to corral a ground force in Syria that will 
fight against ISIS. And the $500 million train and equip 
program was a failure, and the President even admits that it 
was a failure.
    The President has been unsuccessfully getting the Sunnis in 
Iraq to fight against ISIS mostly because he has been equally 
unsuccessful in getting the Iranian Government in Baghdad to 
stop its sectarian ways. The latest round of peace talks were 
seen as so dismal that they were delayed until later this 
month, but the war rages on.
    Part of ISIS' strength comes from its ability to 
disseminate its propaganda online. Following the San Bernardino 
attack, it was revealed that the attackers had been 
communicating online where they bonded over their commitment to 
jihad before Malik was granted a visa to come into the United 
States.
    Malik had also advocated jihad and her desire to join the 
fight in several private messages on social media to her 
friends in Pakistan. It was later discovered that at roughly 
the same time of the shooting, Malik declared allegiance to 
ISIS on Facebook.
    The other main question of this hearing is what role social 
media is playing in the fight against ISIS. In October, ISIS 
issued a new instruction manual on how terrorists can use 
social media. Are private companies doing enough to stop this? 
Facebook and Twitter both have policies prohibiting the 
promotion of terrorism on their platforms. While we have seen a 
dramatic drop of terrorist content on Facebook, there are still 
over 40,000 Twitter accounts used by ISIS supporters.
    What is the role the U.S. Government has in all of this? 
The administration promised a strategy to counter online 
radicalization 5 years ago, but we don't have that strategy 
yet. I have introduced legislation requiring the strategy that 
passed the House unanimously in December and is currently 
pending in the U.S. Senate. The administration's strategy 
leaves us with little confidence that it would be enough to 
defeat ISIS.
    The amendment to the Omnibus that was signed into law in 
December required the President to come up with a strategy that 
would actually defeat ISIS, and that strategy must be given to 
the American people and Congress in the summer of this year. 
ISIS has American blood on its hands. What are we going to do 
about it?
    I will now yield to the ranking member, Mr. Keating from 
Massachusetts, for his opening statement.
    Mr. Keating. Thank you, Mr. Chairman, for conducting the 
hearing today. I would also like to thank our witnesses, 
General Keane, Ambassador Fernandez, and Dr. Swift, for being 
here to discuss this very important topic, and for their 
flexibility in rescheduling for today's panel.
    As details emerged of the December 2, 2015, cold-blooded 
attack in San Bernardino, we were left shocked and horrified by 
the calculation and the savagery. Fourteen innocent Americans 
died and dozens more wounded at the hands of two self-
radicalized assailants. Let us keep in mind those that lost 
their lives, their family members and their loved ones again 
here today as we conduct this hearing.
    While the severity of the attack caused it to resonate so 
strongly, we are reminded that San Bernardino is not the first 
attack inspired by ISIL in the United States. In fact, there 
have been three attacks in the U.S. dating back to 2014, which 
were carried out by individuals inspired by ISIL.
    It is clear that ISIL poses a threat to the United States 
through its ability to appeal to a vulnerable demographic 
predominately of young adults. As of last October, FBI Director 
Comey reported that his agency is pursuing over 900 active 
investigations against homegrown violent extremists, the 
majority of which are linked to ISIL.
    Separately, over 20,000 foreign fighters have traveled to 
join rebel or terrorist groups in Iraq, Syria, including ISIL. 
These movements are increasingly difficult to track in our 
globalized world, and the risk of their return to the U.S. is a 
great challenge to agencies overseeing foreign fighter travel. 
As the title of this hearing suggests, it is critical that we 
understand the nature of the threat posed by ISIL, be it an 
evolving threat, and in order to degrade and ultimately defeat 
a foreign terrorist organization like ISIL, we need to bring 
together various stakeholders such as federal, state, and local 
first responders and investigatory agencies, and equip them 
with the best resources necessary to respond.
    To this end, I have been proud to partner with my 
colleagues both on this committee and Homeland Security to 
study the threat posed by foreign fighter travel and authorize 
the Department of Homeland Security to develop a strategy in 
response while bolstering the arsenal of fusion centers and 
intelligence agencies. Coordination and support from the 
private sector is also necessary, since many ISIL members use 
technology and social media platforms for communication, 
fundraising and recruitment.
    I look forward to hearing from our witnesses today about 
the threat posed by ISIL, and how the United States and its 
partners can work together to overcome it. I yield back.
    Mr. Poe. I thank the gentleman from Massachusetts. The 
Chair will yield a minute to General--not General, excuse me--
Colonel Cook for his opening statement.
    Mr. Cook. Thank you, Mr. Chair. The promotional system was 
seriously flawed when I made colonel. Didn't make it any 
higher. Anyway, this is a very, very important hearing. Many 
years ago, I was part of the 1st Battalion, 8th Marines, 1983. 
I left that and they went afloat and went into a place called 
Lebanon. There was a group called Hezbollah that went in there, 
blew up the barracks, and over 260 Marine-Army-Navy personnel 
were killed that day. And then it always stayed in my head, and 
then recently in my home county that I represent, San 
Bernardino County, had almost deja vu all over again with, once 
again, Islamic terrorism.
    The one thing I did want to comment on, and I will talk 
more about knowing your enemy and everything else, was just the 
tremendous job that the local police department, the sheriff's 
office, the state, the county, everybody worked together. It 
was like we have a terrorist incident and they knew right away 
and instead of 14 killed, and I don't know how many wounded, it 
changes. We could have had even more.
    So this is an extremely important hearing. Obviously it is 
right in my backyard, and I want to thank you very much for 
calling such an important hearing. Thank you.
    Mr. Poe. The Chair will yield a minute to Mr. Higgins from 
New York for his opening statement.
    Mr. Higgins. Yes, thank you very much, Mr. Chairman. I 
think when we are talking about terrorism in the United States, 
I think it is very important to distinguish between fact and 
fiction. The fearmongering that goes on this country is 
extraordinary, and public polling indicates that it is very, 
very effective.
    But I think when you look at the most recent book by Peter 
Bergen, ``The United States of Jihad,'' who is a CNN national 
security analyst, wrote four other books on terrorism, you see 
that there is a real distinction between Islamic terrorists and 
how many people have been killed in the United States since 9/
11. It is 45. The neo-Nazi and anti-government terrorists have 
killed over 48 people.
    The profile that we presume about terrorists, I think, has 
been shattered at least in terms of perception, and not enough 
credit is given also to our counterterrorism and law 
enforcement efforts, be it at the fusion level, at the local 
level. On 9/11 there were 16 people on the no-fly list, today 
there is 47,000. One-point-five million people, if they tried 
to get on a plane bound for the United States, would be set 
aside for secondary screening. So I think it is also important 
to recognize the effectiveness of our counterterrorism 
activities.
    And, unfortunately, in counterterrorism you never get 
credit for what didn't happen, and in counterterrorism it is 
all about what didn't happen. So I think we should give 
recognition to those facts as well as we move forward with this 
discussion. I yield back.
    Mr. Poe. I thank the gentleman from New York. I will 
introduce each witness and let them give their opening 
statements. General Jack Keane is a retired four-star general, 
former vice chief of staff of the U.S. Army, and currently 
serves as chairman of the Institute for the Study of War.
    Ambassador Alberto Fernandez is vice president of the 
Middle East Media Research Institute. Ambassador Fernandez 
served as a U.S. Foreign Service officer and as the State 
Department's coordinator for the Center for Strategic 
Counterterrorism Communications.
    And then we also have Dr. Christopher Swift. He is an 
adjunct professor of National Security Studies at Georgetown 
University School of Foreign Service. Dr. Swift has conducted 
extensive research on terrorism, armed conflict, and the 
intersection between international law and national security.
    General Keane, we will start with you for your opening 
statement.

STATEMENT OF GENERAL JACK KEANE, USA, RETIRED, CHAIRMAN OF THE 
             BOARD, INSTITUTE FOR THE STUDY OF WAR

    General Keane. Thank you, Chairman Poe, Ranking Member 
Keating, distinguished members of the committee, for inviting 
me back today to talk about such an important subject. I am 
honored to be here on the panel with my distinguished 
colleagues. Please refer to the map that we provided by the 
Institute of the Study of War, which I will reference in my 
remarks.
    The primary objective of the United States Government 
remains protecting the homeland and the American people, 
including safeguarding American values both in the homeland and 
abroad. The San Bernardino attack following the Paris attacks, 
the downing of the Russian airliner, and multiple attacks by 
ISIS in Lebanon and Turkey, all once again dramatically 
emphasize the danger and vulnerability of civilian population 
to terrorism.
    The Director of National Intelligence James Clapper in his 
recent report to the Congress stated that homegrown extremists 
pose the most significant threat to the United States homeland 
in 2016. While I believe this is a daunting task to prevent all 
such attacks, I am confident in the United States law 
enforcement and intelligence capabilities to rise to the 
challenge. Having the best defensive security system in America 
is not sufficient. We must have as good an offense to stop and 
defeat ISIS, which is where I will concentrate my remarks.
    While the United States' offensive capability is there, the 
strategy is not. Indeed, without an effective strategy we are 
destined to prolong the barbarism and the killing in the region 
while driving up the risk at home. Radical Islam is morphing 
into a global jihad with the expansion of al-Qaeda and the 
extraordinary success of ISIS which has rapidly become the most 
successful terrorist organization in modern history.
    ISIS has three major goals. The first is to defend Syria 
and Iraq. While ISIS has lost some territory, it views 
operations in Syria and Iraq as largely successful because it 
still controls large swaths of territory, it is recruiting 
well--1,500 to 2,000 per month--it is maintaining initiative, 
and it is able to logistically sustain its forces.
    The second goal is to use its headquarters in Syria to 
expand in what ISIS terms the near abroad--it is in orange on 
your map with black or blue stars--by establishing affiliate 
organizations with a formal relationship in nine countries and 
regions, with three in the blue about to be formed. ISIS 
provides guidance and resources to most of these affiliates.
    The third major goal is to influence the far abroad--on 
your map see areas in yellow--which are Muslim lands and 
countries that are supporting the coalition against ISIS, the 
United States, Europe, and Australia to name some. ISIS does so 
by inspiring, motivating or directing followers to kill their 
fellow citizens, by averaging thousands of social media posts 
per day, and by returning fighters from Syria who are trained 
and motivated to attack their own citizens at home. ISIS 
attempts to divide and polarize these societies by weakening 
the people's resolve to support their government's effort and 
to fragment and polarize the non-Muslim and Muslim populations.
    What can be done? First, defeat the idea. National leaders 
and Muslim clerics must undermine the political and religious 
ideology with not just what is wrong, but what is right. The 
battle is within Islam itself, where in the Arab world this 
battle is intersecting with authoritarian regimes and family 
monarchy's failure to politically reform and to adjust to the 
needs of their societies. Therefore, we are fighting a 
political and religious ideology which draws its origin from 
the very strict interpretation of the Quran and Hadith as well 
as the intolerance of Wahhabism and Salafism.
    Political leaders such as el-Sisi and King Abdullah have 
referred to it as a religious revolution, yet U.S. policy fails 
to define radical Islam or explain it nor understand it. How 
can we possibly defeat radical Islam if we don't understand it? 
Knowing the kind of war you are fighting is the first priority 
of a national or military leader. We must challenge ISIS not 
simply in mosques and schools and other gathering places, op-
eds and the like, but also, certainly, on the Internet.
    Second, destroy the safe havens. No insurgency was ever 
defeated where a safe haven existed. The major lesson of 9/11 
was that the al-Qaeda safe haven was allowed to exist in 
Afghanistan for many years even after the al-Qaeda successfully 
attacked the U.S. Embassy in Africa and the USS Cole. The 
longer terrorists are allowed safe haven, history advises that 
terrorists become more experienced, more lethal and more 
ambitious. Iraq and particularly Syria are ISIS safe havens.
    Recognize that the current strategy of relying on local 
defense forces without sufficient numbers, arms, training, and 
not maximizing effective air power, protracts the war against 
ISIS for years unnecessarily. In my judgment, throw out 
strategic patience and replace it with strategic urgency to 
defeat ISIS. While the military effort in Iraq and Syria is 
significantly under-resourced, the political effort which is so 
necessary to achieve a military victory is also flawed. I would 
be willing to take that on in Q&A.
    Third, marginalize the affiliates. The 9-11 Commission 
recommended a global alliance to defeat radical Islam. In 
parallel with destroying ISIS safe havens in Iraq and Syria, 
partnering with allies to marginalize and, where possible, 
defeat affiliates is critical. Otherwise, ISIS will reemerge at 
an affiliate location, now likely, Libya. The U.S. is beginning 
an effort in Libya against ISIS. Sharing intelligence, 
technology, equipment and training is a proven winner in 
harnessing the collective resources of an alliance in defeating 
a common enemy.
    In conclusion, ISIS and al-Qaeda pose the most imminent 
threat to the security and values of the United States and 
Europe. The success of these radical Islamist military 
organizations comes only partly from their own strength and 
will. It results also from a general collapse of the 
international order driven partly by the withdrawal of the 
United States from supporting that order, partly by the 
irresponsible passivity and free-riding of most European 
states, partly by the unrealized expectations of the people of 
the Middle East, and partly from the active attempts of Iran, 
China, and Russia to dismantle all or part of a global order 
designed to favor our values and interests and to replace it 
with one that favors theirs.
    Understanding what is happening and why is the basic 
ingredient to developing achievable strategies. The United 
States is facing global security challenges on a scale not seen 
since the rise of the Soviet Union post World War II. While 
complex and difficult, it is certainly not hopeless and the 
world has never needed American leadership more than it does 
today.
    Thank you and I look forward to your questions.
    [The prepared statement of General Keane follows:]
  
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Thank you, General Keane.
    Ambassador Fernandez.

     STATEMENT OF THE HONORABLE ALBERTO M. FERNANDEZ, VICE 
        PRESIDENT, MIDDLE EAST MEDIA RESEARCH INSTITUTE

    Ambassador Fernandez. Thank you, Mr. Chairman, and thank 
you, members of the committee for having me today. It is great 
to be back again.
    Measured in comparison with most other terrorist groups and 
insurgent movements, the ISIS brand is a major success. The 
fact that it has mobilized tens of thousands to flee their 
countries, thousands of them leaving very comfortable 
circumstances in the West, is testimony to the enduring power 
of its message. It most certainly does represent a 
revolutionary, contemporary appeal. This is not going back to 
the Middle Ages.
    But despite being so new, its success now is that it is not 
a specific video or statement or act that mobilizes, but rather 
the concept, the image of the organization. This is an idea and 
a symbol which has matured and has been internalized by those 
people that support it. That is one of the lessons of San 
Bernardino and other places.
    One result of these attacks is to make the Islamic State 
look even more ubiquitous, powerful and conquering than it 
actually is. It is something that we see in the West, including 
in the government and media, sometimes unwittingly helping to 
suggest that they are actually more powerful than they are. 
They are actually quite extraordinary, but we make them look 
even more than they are.
    While the actual state in its Syrian-Iraqi heartland is 
slowly, all too slowly weakening, the virtual caliphate, the 
idea of the state, its image, its sense, remains relatively 
intact and powerful. The ISIS victory narrative has been 
sustained to this day by two elements, the actions and growth 
of the ISIS franchises and these continued attacks in the West 
such as Paris, which mimic and, in a way, replace the preferred 
image of ISIS of military victory on the ground. They would 
rather be marching into Baghdad and Damascus, but in lieu of 
that they will take what they can get, whether in San 
Bernardino or Paris or Sinai or wherever.
    This image can still be sustained for awhile, especially if 
a continued progress against ISIS on the ground remains slow 
and gradual. As long as the idea of the ISIS caliphate remains 
plausible, it will continue to attract recruits, spawn 
terrorist operations focusing on targets of opportunity 
worldwide, and spin off copy cat operations. You cannot contain 
the ISIS brand if the ISIS caliphate is merely contained.
    So you see this seeming paradox. The best way to weaken the 
ISIS brand is to crush it in the field militarily, but the more 
you push the greater the incentive they will have to lash out 
in both planned operations and encourage zealous, young 
devotees to act. That is the price we are going to have to pay. 
Success in planned operations will no doubt lead to attempts by 
lone wolves in the future.
    So obviously ISIS needs to lose and even more importantly 
to be seen to lose. In addition to military progress powerfully 
and graphically portrayed, technical means used by both social 
media companies and government need to shrink the size of the 
online state. But while those two things are important, the 
core message of the ISIS brand also needs to be answered. Some 
of this work is beginning, albeit all too slowly and weakly.
    Given the importance of Iraq and especially Syria in the 
ISIS discourse and how it is sold to Westerners and even to 
people in the Middle East distant from the front, there is real 
value in empowering Syrian and Iraqi Sunni Muslim voices who 
can speak directly to wavering individuals outside the Middle 
East. This hasn't been done yet. The voices of recanters and 
defectors need to be raised much higher than they have been.
    Governments receiving returnees from ISIS ranks should find 
creative ways to incentivize counter-radicalization media 
outreach as much as integration and law enforcement. And we 
actually have a great template because we have ISIS' own way of 
producing these personal testimony videos. There should also be 
room for a well-funded effort promoting tolerant, liberal Arab 
Muslim values in contradistinction to the vision of Salafi 
jihadism. ISIS is a really important phenomenon, but it is part 
of a much wider phenomenon occurring.
    Governments should also look to empower and expand the 
scope of nongovernmental messaging platforms and organizations 
within the Middle East with the goal toward building 
sustainable messaging efforts against Salafi jihadism. It is 
not something that only the U.S. Government or friendly 
governments can do. So the ISIS brand or way of doing things 
has now metastasized and been internalized. But it can at least 
be chipped away by a combination of military, technical and 
counter-messaging efforts.
    I am concerned that steps have been too little and too late 
so far, but I see that we are slowly beginning to move in the 
right direction, and I look forward to your questions. Thank 
you.
    [The prepared statement of Ambassador Fernandez follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Poe. Thank you, Ambassador Fernandez.
    Dr. Swift.

   STATEMENT OF CHRISTOPHER SWIFT, PH.D., ADJUNCT PROFESSOR, 
     EDMUND A. WALSH SCHOOL OF FOREIGN SERVICE, GEORGETOWN 
                           UNIVERSITY

    Mr. Swift. Chairman Poe, Ranking Member Keating, honorable 
members, it is a pleasure to be here before you today and to be 
with my esteemed colleagues. I agree with General Keane that 
the first step in any war is to know your adversary and to know 
the nature of the war you are embarking upon, not changing it 
to or turning it into something alien to its own nature.
    And I agree with Ambassador Fernandez that ISIS has a 
remarkable tendency to amplify its own importance and influence 
through messaging and narrative. But at the same time, we have 
to see the messaging as a symptom of the disease and understand 
the disease in its own context. And so what I would like to do 
with my statement today is provide you with a framework for 
understanding how individualized action contributes to and 
aggregates global jihad.
    And so what I would like to do is start with a discussion 
of two major shifts in the global Salafi jihadi movement, and 
then put them into a practical context in terms of what we are 
seeing with ISIS-inspired attacks not just in the United States 
but also in western Europe.
    There are two major trends in the Salafi jihadi movement 
today. The first is the localization of global jihad, and the 
second is the atomization of global jihad. These two things are 
distinct but complementary. This is how they work. Localization 
is a product of a generational shift in leadership from the 
individuals who started al-Qaeda and fought the Soviet Union in 
Afghanistan to the deputies that survived al-Qaeda's failures 
and fought against the United States in Afghanistan and Iraq.
    We see this generational shift and we see with it a 
geographic shift in this focus of the Salafi jihadi movement 
from the cultural and geographic periphery of the Islamic world 
to the Sunni Arab core. In fact, if you look at the map 
provided by the Institute for the Study of War, you can see the 
drawing in to the Sunni Arab core as a fundamental part of this 
localization strategy.
    Now what does localization do? Well, for the first time in 
nearly two decades, Salafi jihadi groups are fighting in Arab 
countries with a Sunni majority, where they speak the language, 
recognize the local tribal structure and can build roots, 
something that al-Qaeda was never able to do. This is why al-
Qaeda in the Arabian Peninsula, initially, in Yemen, and now 
ISIS in Syria and Iraq has become the true base that al-Qaeda 
was never able to become. It has a population, it has a way of 
generating resources, it has a way of deploying and organizing 
manpower, money and materiel.
    At the same time, we see the atomization of global jihad, 
and that is to say, violence undertaken by individuals who have 
a desire to become part of a broader imagined community. We see 
this in the attacks that we have experienced in the United 
States over the space of the last two decades, we see it in the 
messaging that Ambassador Fernandez was discussing earlier, and 
we see it in the tragic events of San Bernardino.
    How is this different? Well, unlike the localization of 
global jihad it doesn't build on organizations, it builds on 
ideas. And so while the localization of global jihad creates a 
political caliphate, a political community that provides a 
foundation, as Ambassador Fernandez noted the atomization of 
global jihad thrives on an imagined caliphate, an imagined 
community.
    If you look at the thing that distinguishes ISIS from every 
single transnational terrorist syndicate in the world today it 
is the combination of this political community that has a 
foundation in real places and real people and this imagined 
community that exists online. What are the consequences 
strategically? Well, they are twofold. The first is, ISIS can 
organize, recruit and direct violent force to serve its ends. 
It uses direct action in the places where it has direct access. 
But ISIS can also recruit, inspire and direct indirect action 
through social media, through print media and through broadcast 
media. And that allows them to operate in our strategic depth 
without the need to commit their regular forces.
    There are three implications for that, honorable members, 
and they are as follows. The first is we need to understand 
that ISIS is opportunistic. It uses different tools in 
different theaters depending on what its capabilities are in 
those places. Chairman Poe, if you look at the map you 
presented earlier, the number of direct ISIS attacks in Europe 
is substantially higher while the number of ISIS inspired 
attacks in the United States is substantially higher.
    That breakdown is not surprising at all. Europe has closer 
proximity to the Syrian civil war, it is in the middle of a 
major refugee crisis, and they have large, alienated, domestic 
Muslim populations that are not well integrated into European 
society. Contrast that with the United States where we have a 
much more diffuse Muslim population, we are not proximate to a 
major conflict, and we are not experiencing a major refugee 
crisis.
    The tools that ISIS uses here to influence, disrupt and 
intimidate are much more tools of facilitation and resonant 
effects, inspiring people online or engaging in recruiting them 
through online chat rooms, through Skype and through other 
sorts of mediated or facilitated dialogues.
    So for the United States, the risk of terrorist 
infiltration is somewhat lower than it is compared to our 
European allies, but the risk of the homegrown radical, of the 
individual we are not able to identify early on is much, much 
higher, in part because that is the strategy ISIS is using here 
versus the strategy of infiltration that we have seen them use 
in Paris and elsewhere. This is why the trends we are seeing 
look so different, even though the underlying motives and 
ideology and psychology are the same.
    Honorable members, I would like to conclude with one last 
thought before we get to question and answer, and that is that 
success in one theater does not necessarily create security in 
another. And here is what I mean by that. Terrorism is a low 
risk, high return strategy that weaker organizations use to 
reach beyond their grasp and punch above their weight. 
Organizations use terrorism when they are not able to confront 
and defeat their adversary directly.
    So the more we contain, degrade, isolate ISIS in the Middle 
East, the more effective our strategy becomes in places like 
Iraq and Syria--and I agree with General Keane that we do need 
a more effective approach--the more likely it is that ISIS will 
lash out using indirect effects, using unconventional means in 
western Europe and the United States. Success in one area does 
not necessarily yield security in the other, and if we are 
going to turn up the temperature on ISIS in the Middle East we 
should anticipate, plan, and prepare for, on a whole of 
government basis, more terrorism here at home. Thank you.
    [The prepared statement of Mr. Swift follows:]
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
    
                              ----------                              

    Mr. Poe. Thank you, gentlemen, for your testimony. It was 
excellent. I will yield 5 minutes to myself for some questions 
and get your answers.
    I agree with you, Dr. Swift, that this is a multifaceted 
issue. We need a strategy to combat ISIS, but not just in the 
United States or not just in Syria, not just in North Africa, 
but online and all of the other avenues where we see ISIS 
creeping its ugly head up. We need strategy for all of the 
above, not just for one area.
    General Keane, there has been some talk about--and I see 
your map and it is very disturbing, got all of North Africa 
under some part of an influence in areas of ISIS. What is the 
situation with ISIS' rumored movement toward Libya and moving 
their headquarters, if I can use that word, to Libya? Explain 
to us what is taking place here.
    General Keane. Well, first of all, it is much more than a 
rumor. It is a fact they have been putting fighters and 
resources into Libya for over a year now. And certainly, the 
social and political upheaval that is taking place in the 
Middle East is known to the committee members and certainly 
everybody at this table that radical Islamist groups take 
advantage of those events.
    And Libya is by definition a failed state, and don't want 
to revisit why that happened but it is, and they are there 
taking huge advantage of that. I mean, conservative estimates 
are somewhere around 3,000 to 4,000 are now there and other 
estimates are as high as 10. I am skeptical about the higher 
number, but I don't have access to top secret information. But 
they have several thousand in there and they intend to expand 
it. They have put their own leaders on the ground there to 
assist with training and also with equipping, and I am 
confident they will be providing guidance to them.
    Certainly they can be predators in terms of what is taking 
place in Africa itself. They have a movement already in the 
Sinai challenging Egypt and el-Sisi, and certainly they can 
influence that from Libya. They can also influence Tunisia. But 
most significantly, I think the thing that concerns most of us 
is the access it would give them to Europe, because they are a 
small body of water away from influencing Europe and bringing 
terrorism there.
    So it is a potentially dangerous situation. I think the 
United States, here, is doing absolutely the right thing by 
recognizing that we just cannot take away the safe havens, 
which we are doing as I indicated not with the sense of urgency 
I think it needs; that we have to look at these affiliates as 
well, prioritize them in what are the most dangerous and work 
with partners as much as we can to deal with this. This should 
not be the burden of the United States military exclusively 
when we have so many people in the region who are concerned 
about this threat as much as we are. And that is why I believe 
that partnering is essential to do this.
    But I do believe our special operations are on this. I 
think the CIA has been collecting on this for some time, and 
there is also al-Qaeda groups in Libya that are dangerous as 
well. So that is, I think, where we are. We will make some 
progress against some of these groups. But I think until we 
partner with others in the region to take a more holistic 
approach to it, it won't be nearly effective as we can be.
    Mr. Poe. Two more questions. I would like for you to define 
the enemy more than just the name. I mean, they have been 
called ISIL, ISIS, Daesh, and all types of different names. But 
how would you define the enemy?
    General Keane. I mean, they are clearly a radical Islamist 
organization that is grounded in a political and theological 
ideology. They base it on a very strict interpretation of the 
Quran and Hadith, and they have huge geopolitical objectives in 
terms of not only dominating Muslim lands, but also in terms of 
ISIS stimulating an apocalyptic event in Europe which would 
carve out a rather large caliphate for them with also 
eventually seeking world domination.
    They are somewhat similar to the al-Qaeda in that respect, 
but the methodology that they go about achieving it are 
somewhat different. And so I think ISIS in that terms is the 
best way to describe it, and I would agree with the Ambassador 
of how they have been able to achieve success in what they are 
doing as well.
    Mr. Poe. My time has expired. I will yield to the ranking 
member, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman. One thought I had 
when we talk about our coalition. We can all get up and sign on 
together, take pictures together, issue statements together, 
but one of the things that really doesn't line up and I think 
it is critical, is the hierarchy of interests in terms of ISIL 
with our coalition. Now let us set Europe aside as a separate 
example. I am going around the Mideast region and Northern 
African region, and who among our coalition has ISIL ranked 
number one as their concern? Turkey, I think, it is number 
three or four. Saudi Arabia, it is not number one, in my 
opinion. So we are lining up with this coalition, but that is 
primary concern right now in terms of our own. Name another 
country and the other region outside of our European allies 
that ranks at number one. Can you?
    General Keane. I think in the Middle East, the country, I 
believe, that puts ISIS ahead of the Iranian influence in the 
Middle East, most all these other countries consider, Sunni 
Arab countries consider Iran the greatest threat, and I agree 
with that assessment. But Egypt would put it number one.
    Mr. Keating. Any other thoughts on that, the imperfect 
coalition?
    Mr. Swift. Ranking Member Keating, I would say that Russia 
probably puts ISIS number one for the purposes of propaganda, 
but not for the purposes of operations. And to the extent that 
ISIS is a threat, it is a threat to a proxy rather than a 
threat to Russia's own interests.
    Mr. Keating. Ambassador?
    Ambassador Fernandez. I would just add, sir, that obviously 
Iraq would put it as number one. Not out of any special 
devotion to eliminate ISIS, but because it obviously represents 
an immediate national security threat. The problem with Iraq 
seeing it that way is it sees it within the lens of the problem 
of sectarianism within Iraq. The only problems of the Iraqi 
Government itself it has with its own Sunni Arab population.
    Mr. Keating. Just to make another observation when I look 
at the map, General. King Abdullah met with a group of us not 
long ago, and he said here is the battlefront, and he had 17 
points but they almost juxtapose over your regions as well. I 
mean, it is important to defeat ISIL, to take away their 
territory obviously, but we can't lose that perspective that 
this map presents and what King Abdullah said as well. I mean, 
that is also our front line and it is spread all over the 
place. Isn't that an important perspective?
    General Keane. Well, I agree. I mean, I have another map 
that shows the influence of Iran and put it in red, the 
countries they are dominating in green, essentially Sunni Arab 
countries. Most of the Middle East countries look at that map 
and take that as their largest threat.
    I mean, what I was trying to say at the end of my remarks, 
is that certainly ISIS exists and is succeeding, but it is part 
of a larger story that is taking place in the Middle East with 
the collapse of the order that is there, and also a much larger 
geopolitical story where Iran, Russia, and China are also 
pushing back on international order which has some impact. I 
don't think you can look at these threats in isolation that I 
believe is what you are suggesting.
    Mr. Keating. Yes.
    General Keane. And I would agree with that, Congressman 
Keating. But nonetheless, as you are working with these threats 
it does take some intellectual muscle to determine how best to 
meet these challenges.
    Mr. Keating. This is a great topic and so expansive, but 
let me just jump to something more recent. The siege in Aleppo, 
how is that going to change the landscape going forward? Some 
of the people, they are pretty much--pretty tough choices for 
people in that area. There is the Assad government, and then 
the Syrian rebels are now taking a very important hit here. And 
what about the influence of al-Nusra in this?
    Ambassador Fernandez. Sir, if I could add, I think that is 
a really important question and it goes to what General Keane 
just said. ISIS is the most prominent part of a larger 
phenomenon of radical Sunni Arab revivalism. But ISIS' success 
has also done something else. It has ignited a political, 
ideological, military arms race among the al-Qaeda franchises.
    When al-Qaeda, when ISIS rose in al-Qaeda, it was kind of 
dumbfounded. Al-Qaeda central was these old men in Waziristan. 
But the franchises have learned, they have adapted, some better 
and some worse. The Nusra Front has been in the forefront of 
being smart, creative, and planning really, really well.
    Obviously, and by the way, the fall of Aleppo, one thing 
that of course it does is it discredits the West, it discredits 
the United States, and it simplifies both for the two best 
worst actors' remaining standing, the Assad regime on the one 
hand and ISIS on the other. That is actually good for them and 
it is bad for us.
    Mr. Keating. That is a terrible choice.
    Just quickly, Dr. Swift.
    Mr. Swift. Ranking Member Keating, I wanted to go back and 
ask, point out a broader issue about the map. I think when we 
look at this particular map we have to distinguish between 
ISIS' ambitions and their operations, and then we need to 
distinguish between their operations and their traction.
    Traction requires building roots in a society, knowing 
where the bodies are buried, how to raise money, who the 
stakeholders are, who the political players are, what tribes to 
interface with. And if you look at what some of the most 
successful al-Qaeda successor organizations have done, they 
have really built themselves into whatever the local political, 
social and economic framework was in a particular place. That 
is the localization of global jihad that makes it possible for 
these organizations to do things that al-Qaeda and other 
transnational terrorist syndicates were never able to do.
    When we are looking at where ISIS is going and what it can 
do, we really need to be looking at how far it has dug into the 
societies where it is operating versus the light touch or the 
ambition we see in their messaging, and break that down very 
consistently.
    Mr. Keating. Thank you. I am going to yield back. My time 
is over. But I hope that threat can be picked up by other 
members' questions because that is very important. Thank you.
    Mr. Poe. The Chair recognizes the gentleman from 
California, Mr. Cook.
    Mr. Cook. Thank you, Mr. Chair. I am going to switch gears 
a little bit. And I understand, by the way, it is a great 
hearing and everything, but why San Bernardino? I mean, in 
terms of the impact on it, it just seems--I could understand a 
military base. I can understand a hospital. But going into a 
county building and killing 14 people, they are certainly going 
to have all of San Bernardino County and the city, probably 99 
percent of them, they might have been neutral on some of these 
issues but now to do that and particularly in an area where we 
have had some success where the different agencies have worked 
together as opposed to other states, cities, where it was very 
disjointed.
    And as I said, I thought the police response was good. Even 
though 14 died, I think it could have been in the hundreds if 
it was a different objective. And could you just comment on 
that?
    General Keane. Well, I think all the three of us can do is 
speculate, but yes, there are certainly more vulnerable 
targets, greater targets for them to access. There has to be 
some relationship with the fact that Farook was an employee 
there, and I would suspect the relationship there was in the 
equation in making the decision. Familiarity is another.
    But certainly there are other targets that would have had a 
significantly greater impact--thank God. And also, I think we 
all know also, because the police and the FBI reported it, they 
did intend to kill more people with the bombs that they had, 
but fortunately they did not go off.
    Mr. Cook. General, I agree with you. And you had made a 
comment about intelligence, and I am not sure if I have a warm 
and fuzzy feeling. I understand national intelligence and 
everything else, but some of these things, getting down to 
local agencies in terms of--and any threat assessment is real, 
real iffy, but if I am somebody down there in the San 
Bernardino Police Department or the sheriff's department, I am 
interested if there is a threat on a terrorist activity, 
whether it is radical Islam, neo-Nazi, you name it, whether we 
can take action. Do you have any recommendations or suggestions 
on that?
    General Keane. Well, you are moving out of my expertise, 
but in dealing with law enforcement leaders, I mean, clearly, 
the Federal Bureau of Investigation as well as many of our 
major cities have very good intelligence systems. I think when 
you get beyond some of that and I believe that is what you are 
talking about, then there are issues there certainly.
    And every time I have had a problem like this in the United 
States military, what I have always thrown at that problem is 
training and education and it usually has a payoff. So we have 
the expertise and we have got to get that expertise out to 
others, and certainly there is no lack of motivation and how 
you build effective intelligence systems and what the cues are, 
et cetera, and I think we can do that. But there is a problem.
    Mr. Cook. Do you think it gets down to that level or do we 
need to do that? Because my experience, sometimes it is 
classified, we can't talk to you about this or it is too 
compartmentalized. And I don't know whether that would solve 
the problem or at least give them a warning, because it is 
going to happen again someplace. We have had it in Boston and 
some other place, and I am just wondering whether we have got 
to do that.
    General Keane. Well, I mean, it shouldn't surprise us when 
you get beyond major urban centers where they have the 
resources to be able to put together, actually, intelligence 
systems--obviously New York is the most notable--that smaller 
sheriff's departments are not going to have that resource. But 
also what they have is human intelligence because they are on 
the ground out there.
    And I think the awareness that we are trying to build in 
this country, when you see something say something and work 
through the issues that the FBI has reported out that 80 
percent of the school shootings and terrorist activities that 
have taken place in our country, the shooters have spoken to 
somebody about what they were going to do before they executed 
the act. So that means there is intelligence out there. Now 
whether we can educate the public enough so that peers, family 
members, those in the circle of relationships are willing to 
come forward is another issue.
    Mr. Cook. Dr. Swift, you were going to comment real quick.
    Mr. Swift. Representative Cook, I have had the pleasure 
working in fusion centers when I was doing financial 
intelligence at the Treasury Department and also the pleasure 
of advising joint terrorism task forces on some of these 
issues. There were two questions you asked, sir. The first, why 
San Bernardino, and the second, what can we do about it?
    So the answer to the first question is the adversary picks 
the fight. They pick the weapon and the pick the terrain. And 
when you are dealing with inspired violence as opposed to 
directed violence, the terrain is going to be where the person 
who is inspired and self-motivated happens to find themselves. 
The weapon is going to be what they can acquire in that place, 
and the target is going to be whoever they think is the most 
appropriate target given those circumstances.
    So when we are dealing with the self-radicalization 
phenomenon as opposed to something that is directed, it could 
be anywhere because what matters is not the direction that a 
command and control system is providing, but what exists in the 
mind of the person who is creating the act.
    Mr. Cook. Thank you. I have got to yield back. They are 
giving me that evil eye.
    Mr. Poe. The Chair recognizes the gentleman from New York, 
Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman. There was a hearing 
earlier today in Foreign Affairs where it was disclosed that in 
the past year ISIS has had their footprint reduced in both Iraq 
and Syria. Iraq it was 40 percent, Syria it was 10 percent, 
with excessive air strikes led by the United States.
    But what is, I think, most disturbing, and I think, General 
Keane, you had alluded to it is, is ISIS' introduction to the 
African continent. And there is a lot of instability to exploit 
in the African continent. There are 55 countries, the newest of 
which is South Sudan. There are more failed states in that 
continent than anywhere else, and as you also made reference 
to, its close proximity to Europe.
    And when you look at the United States, I think we have 
done, again law enforcement and others have done a good job in 
integrating the Arab Muslim community. It is not the case in 
most European countries. In fact, Muslims make up about 10 
percent of the French population, but they represent about 70 
percent of the prison population. That is a disaffected group. 
That is a group that is ripe for radicalization.
    So just if you could elaborate a little bit further on your 
concerns about the African continent and the ISIS presence in 
Libya, I think that would be very helpful to us.
    General Keane. Thank you. Well, clearly--by the way, ISW 
produces this map but this is ISIS' map. This is their graphics 
not ours. And clearly they are interested in North Africa and 
they are putting resources into it. I believe part of that is 
Egypt and part of that is also Europe. I believe they are going 
to continue to put those resources in there unless we counter 
them.
    And remember, when they go into Europe they are very 
sensitive to what you just suggested; that there are Muslim 
communities in Europe that are not assimilated and they really 
want to foment the Muslim and non-Muslim divide. They want to 
take advantage of it. That is the apocalyptic event that they 
are describing. They bring Europe--in their minds; this is 
their goal--to a calamitous war based on that divide.
    And one of the things that we must do in our own country 
and also in Europe is not overreact to this threat. What I mean 
by that is over-policing, taking away people's civil liberties, 
creating the sense of alienation in communities. We have got to 
be careful about how we deal with this.
    So when the French President stands up and he is proud of 
the fact that he has conducted 800, 800 raids into Muslim 
communities, well, on the surface of that that sounds like a 
good thing. But I am willing to speculate that most of those 
raids did not yield much of anything, and yet he is busting 
down doors where kids are living and families are living and 
the rest of it.
    I mean, we have the scars of this ourselves in the United 
States military because we were doing that in the beginning 
when we were dealing with al-Qaeda and the Sunni insurgency in 
Iraq and we learned quickly from our mistakes. But that is 
exactly what ISIS wants. They want this overreaction. They want 
over-policing. They want them to take civil liberties away. 
They want that sense of alienation in Muslim communities to 
grow and fester to the point where more people are willing to 
take up arms.
    So they are very interested in Europe because they want to 
take advantage of what is taking place there in those Muslim 
communities that do feel a sense of isolation. That is what 
they are about in going to Europe.
    Mr. Poe. I thank the gentleman from New York. The gentleman 
from California, Mr. Sherman.
    Mr. Sherman. This hearing's title focuses us on ISIS. There 
is also the Shiite alliance headed by Tehran including 
Hezbollah, Assad and many of the forces in the Baghdad 
government. And I believe that that Shiite alliance is more 
dangerous. I think, General Keane, you agreed with that. They 
have killed more Americans starting with our Marines in Beirut, 
and including those they killed with IEDs given to the Taliban 
and given to forces fighting against us in Iraq. And just the 
Assad wing of that alliance--and I should mention the alliance 
also includes the Houthi in Yemen--but just the Assad wing has 
killed perhaps 200,000 innocent Sunnis. So they have killed 
more Arab civilians, they have killed more Americans.
    But I think the chief difference is when ISIS kills 50 
people they put it on YouTube. When Assad, he murders 1,000 
civilians, he has the good taste to deny it. And so of course 
we are focused on ISIS as being the enemy and the great evil.
    Twitter has announced that they are going after sites that 
are being used to recruit. They used to do a much worse job 
than Facebook; they are now apparently getting better. 
Gentlemen, I don't know if you have had enough time, because it 
has been a recent announcement, but do any of you have an 
opinion on whether Facebook and especially Twitter is going a 
good job in interrupting terrorist recruitment?
    Ambassador?
    Ambassador Fernandez. Yes, sir. This is something that both 
when I was in the government and now at the Middle East Media 
Research Institute we study very closely. Facebook has actually 
led in efforts to clean up those platforms that it has, so it 
has really been a leader. We have seen that over the past year 
in kind of policing itself rather well.
    Twitter was the happy hunting ground of ISIS a year ago. I 
remember in government it was basically a completely unpoliced 
state. They have taken these steps very recently. It is not the 
solution, but it is a very large step in the right direction 
and they are to be applauded for that.
    Mr. Sherman. So if Facebook has done a----
    Ambassador Fernandez. Great job.
    Mr. Sherman [continuing]. Great job, what phrase should 
today's Twitter deserves?
    Ambassador Fernandez. I would give them a C+.
    Mr. Sherman. Ah, okay. I am going to move to the topic we 
dealt with at the full committee and that is defeating ISIS 
where it is, because the existence of a caliphate, even if one 
that is shrunk, is an inspiration to demented minds in Paris, 
San Bernardino and elsewhere.
    General, in World War II we carried out a serious strategic 
bombing campaign. And I was told by the French Ambassador we 
killed 90,000 French civilians in occupied Europe and yet we 
were greeted as liberators when we arrived. Yet our approach to 
strategic efforts against ISIS' economics and war building 
capacity is very different. For example, in the testimony today 
the administration did not disagree with the decision of the 
Iraqi Government to provide free electricity to Mosul and other 
areas controlled by ISIS. I don't remember us trying to provide 
free electricity, fuel or food to occupied Europe during World 
War II.
    There is also, up until recently, ISIS has been paying 
persons who live in ISIS area and are subject to their 
taxation. I don't remember Charles de Gaulle parachuting bank 
notes into occupied France in order to pay people working for 
the government there.
    And then of course we have had the zero--that we heard the 
testimony today that when it comes to hitting their tanker 
trucks, which allow them to sell petroleum, we are only willing 
to bomb the tanker trucks if we find them parked with the 
drivers away. We are not willing to hit the tanker trucks while 
they are moving because that would kill the driver or might 
endanger the driver.
    What language would we be speaking here today if during 
World War II we had not hit any Nazi train or truck unless it 
was parked?
    General Keane. Well, I know. I mean, you are frustrated 
with that, the absurdity of all of it. Look at it. We live in 
literally different times and our values have shifted. 
Roosevelt and Churchill made a decision as you well know that 
it was not enough to defeat the German army and the Nazi 
military force. They believed they had to defeat the German 
people so it would not give rise to this kind of behavior for a 
third time in Europe. So we ran continuous bombing campaigns 
against major German cities that had no military value.
    Mr. Sherman. If I can that is no----
    General Keane. We have to put that aside.
    Mr. Sherman. I am talking about our bombing of occupied 
Europe where we were hitting strategically useful economic 
targets in occupied France.
    General Keane. When we bombed targets in Europe certainly 
we went after their war industry, and certainly most of the 
people who were working in their war industry were in fact 
civilians. And it is an absurdity that we would not take down 
ISIS' economic infrastructure even though civilians are working 
in it. That is number one.
    Number two, and you alluded to it, the bombing campaign is 
different. I mean, even though I am very critical of this 
campaign because the rules of engagement is what you just 
described, in military terms are overly restrictive, the 
President made a policy decision he wanted zero civilian 
casualties. He was told that is very unrealistic.
    Even though we have the most sophisticated precision 
guiding munitions and the most sophisticated system to protect 
the loss of civilian life, when you are fighting a war in and 
amongst civilians, civilian deaths are not avoidable.
    All that said, we go out of our way to avoid civilian 
casualties, but the bombing campaign still is not what it 
should be. Now when people tell you that in the Gulf War in '91 
or in the Gulf War in 2003 or in Afghanistan we did thousands 
and thousands of attacks a day, remember what we were doing. We 
are going after a nation state's infrastructure which is 
largely a physical based system that supports a nation state.
    In going after ISIS, most of those structures that they are 
using they have civilians in those structures with us and we 
know that so we have been unwilling to go after that. That is 
why I have been a proponent for a long time of conducting large 
scale, special operation forces raids, probably using rangers 
to do it, surprise attacks that take down these physical plants 
that ISIS is occupying in doing its business, all of the things 
that we have described that a safe haven does.
    Some risk involved in that. That is direct combat. We have 
got the skill sets to do this and we could truly start to 
handicap this organization in a way that air power cannot.
    Mr. Poe. I thank all three of you for being here. Very 
informative, very fascinating. And the committee members may 
have some more questions for you and they will put those in 
writing and send them to you and then would expect some answers 
quickly. So the subcommittee is adjourned. Thank you very much.
    [Whereupon, at 3:59 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
